<html>
<title> - HOW COMPREHENSIVE IMMIGRATION REFORM SHOULD ADDRESS THE NEEDS OF WOMEN AND FAMILIES</title>
<body><pre>[Senate Hearing 113-45]
[From the U.S. Government Publishing Office]



                                                         S. Hrg. 113-45

 
HOW COMPREHENSIVE IMMIGRATION REFORM SHOULD ADDRESS THE NEEDS OF WOMEN 
                              AND FAMILIES

=======================================================================

                                HEARING

                               before the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 18, 2013

                               __________

                           Serial No. J-113-8

                               __________

         Printed for the use of the Committee on the Judiciary



                  U.S. GOVERNMENT PRINTING OFFICE
81-734                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="385f4857785b4d4b4c505d5448165b575516">[email&#160;protected]</a>  


                       COMMITTEE ON THE JUDICIARY

                  PATRICK J. LEAHY, Vermont, Chairman
DIANNE FEINSTEIN, California         CHUCK GRASSLEY, Iowa, Ranking 
CHUCK SCHUMER, New York                  Member
DICK DURBIN, Illinois                ORRIN G. HATCH, Utah
SHELDON WHITEHOUSE, Rhode Island     JEFF SESSIONS, Alabama
AMY KLOBUCHAR, Minnesota             LINDSEY GRAHAM, South Carolina
AL FRANKEN, Minnesota                JOHN CORNYN, Texas
CHRISTOPHER A. COONS, Delaware       MICHAEL S. LEE, Utah
RICHARD BLUMENTHAL, Connecticut      TED CRUZ, Texas
MAZIE HIRONO, Hawaii                 JEFF FLAKE, Arizona
            Bruce A. Cohen, Chief Counsel and Staff Director
              Kolan Davis, Republican Chief Staff Director


                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Grassley, Hon. Chuck, a U.S. Senator from the State of Iowa......     2
Hirono, Hon. Mazie, a U.S. Senator from the State of Hawaii......     1
    prepared statement...........................................   109
Klobuchar, Hon. Amy, a U.S. Senator from the State of Minnesota, 
  prepared statement.............................................   126
Leahy, Hon. Patrick J., a U.S. Senator from the State of Vermont, 
  prepared statement.............................................   128

                               WITNESSES

Martin, Susan F., Donald G. Herzberg Professor of International 
  Migration, Georgetown University, Washington, DC...............    12
Moua, Mee, President and Executive Director, Asian American 
  Justice Center, Washington, DC.................................     9
Ng'andu, Jennifer, Director, Health and Civil Rights Policy 
  Projects, National Council of La Raza, Arlington, Virginia.....    14
Panetta, Karen, Professor of Electrical and Computer Engineering, 
  Tufts University, Medford, Massachusetts, and Vice President, 
  Communications and Public Awareness, The Institute of 
  Electrical & Electronics Engineers-United States of America 
  (IEEE-USA).....................................................     7
Poo, Ai-jen, Director, National Domestic Workers Alliance, New 
  York, New York.................................................     6

                         QUESTIONS AND ANSWERS

Responses of Mee Moua to questions submitted by Senator Klobuchar    31
Responses of Jennifer Ng' abdu to questions submitted by Senator 
  Klobuchar......................................................    35

                       SUBMISSIONS FOR THE RECORD

Access Women's Health Justice, Oakland, California, letter.......    37
American Civil Liberties Union (ACLU), Laura W. Murphy, Director, 
  New York, New York, statement..................................    42
American Friends Service Committee (AFSC), Washington, DC, 
  statement......................................................    49
American Jewish Committee (AJC), Foltin, Richard T., Director of 
  National and Legislative Affairs, Office of Government and 
  International Affairs, Washington, DC, statement...............    50
APIAHF Asian & Pacific Islander American Health Forum, 
  Washington, DC, statement......................................    52
Baumgarten, Alexander D., and Katie Conway, on behalf of the 
  Episcopal Church, New York, New York, statement................    61
Choice USA, Washington, DC, statement............................    63
Colorado Organization for Latina, Denver, Colorado, statement....    68
Church World Service (CWS), New York, New York, statement........    73
Family Unity:
    Story of Nadine..............................................    74
    Story of Sudhir..............................................    75
    Story of Lauren..............................................    76
    Story of N...................................................    77
First Focus Campaign for Children, Washington, DC, statement.....    78
Forward Together, Oakland, California, statement.................    81
Friends Committee on National Legislation (FCNL), Washington, DC, 
  statement......................................................    86
Ginatta, Antonio M., Advocacy Director, US Program, Human Rights 
  Watch, New York, New York, statement...........................    88
Guttmacher Policy Review (GPR), Washington, DC, article..........    93
Health Food IR, joint letter to President Obama and to all 
  Members of Congress............................................   100
Immigrant and Victim Advocacy Organizations, March 15, 2013, 
  joint letter...................................................   110
Immigrant Law Center of Minnesota, St. Paul, Minnesota, statement   118
Imprint Immigrant Professional Integration, Nikki Cicerani, 
  spokesperson, http://IMPRINTProject.org, statement.............   123
Leadership Conference of Women Religious (LCWR), Sister Janet 
  Mock, Executive Director, Silver Spring, Maryland, statement...   127
Martin, Susan F., Donald G. Herzberg Professor of International 
  Migration, Georgetown University, Washington, DC...............   130
Moua, Mee, President and Executive Director, Asian American 
  Justice Center, Washington, DC, statement......................   134
National Advocacy Center of the Sisters of the Good Shepherd, 
  Silver Spring, Maryland, statement.............................   140
National Asian Pacific American Women's Forum (NAPAWF), 
  Washington, DC, statement......................................   141
National Center for Lesbian Rights, Washington, DC, statement....   147
National Council of La Raza, Jennifer Ng'andu, Director, Health 
  and Civil Rights Policy Projects, Washington, DC, statement....   152
National Immigration Law Center (NILC), Washington, DC, statement   159
National Latina Institute for Reproductive Health (NLIRH), New 
  York, New York, statement......................................   163
Panetta, Karen, Professor of Electrical and Computer Engineering, 
  Tufts University, Medford, Massachusetts, and Vice President, 
  Communications and Public Awareness, The Institute of 
  Electrical & Electronics Engineers-United States of America 
  (IEEE-USA).....................................................   172
Planned Parenthood, Dana Singiser, Vice President of Policy and 
  Government Relations, Washington, DC, statement................   195
Poo, Ai-jen, Director, National Domestic Workers Alliance, New 
  York, New York, statement......................................   197
Praeli, Lorella, Director of Policy and Advocacy, United We 
  Dream, Washington, DC, statemenet..............................   201
Religious Coalition for Reproductive Choice, Washington, DC, 
  statement......................................................   204
Reproductive Health Access Project (RHAP), New York, New York, 
  statement......................................................   209
Sauti Yetu Center for African Women and Families, New York, New 
  York, statement................................................   214
Sojourners, Jim Wallis, President and CEO, Washington, DC, 
  statement......................................................   216
Stolz, Rich, Executive Director & Ada Williams Prince, Director 
  of Policy, OneAmerica, Seattle, Washington, statement..........   217
Tiven, Rachel B., Executive Director, Immigration Equality, 
  Washington, DC, statement......................................   225
Women's Refugee Commission, New York, New York, statement........   230


HOW COMPREHENSIVE IMMIGRATION REFORM SHOULD ADDRESS THE NEEDS OF WOMEN 
                              AND FAMILIES

                              ----------                              


                         MONDAY, MARCH 18, 2013

                                       U.S. Senate,
                                Committee on the Judiciary,
                                                     Washington, DC
    The Committee met, pursuant to notice, at 2:01 p.m., in 
room SD-226, Dirksen Senate Office Building, Hon. Mazie Hirono, 
presiding.
    Present: Senators Hirono, Franken, Grassley, and Sessions.

OPENING STATEMENT OF HON. MAZIE HIRONO, A U.S. SENATOR FROM THE 
                        STATE OF HAWAII

    Senator Hirono. Good afternoon, everyone. I am pleased to 
call to order this hearing of the Senate Judiciary Committee. 
This hearing is titled, ``How Comprehensive Immigration Reform 
Should Address the Needs of Women and Families.'' It will be an 
opportunity to learn about how immigration impacts women and 
families as we begin to consider the ways in which we will 
reform our immigration laws.
    I want to welcome each of the witnesses and Senator 
Grassley and Senator Franken for joining us.
    I would like to thank Chairman Leahy and Ranking Member 
Grassley, and their staffs, for making this hearing possible.
    Now I know that we have folks here that some of us know 
very well, and I would like to give Senator Franken the 
opportunity to say a few words about his good friend who is on 
the panel today.
    Senator Franken. Thank you, Madam Chair. It is so great to 
have Mee here.
    [Laughter.]
    Senator Franken. This confusion, by the way, with Mee's 
name is a running joke in Minnesota, but it is great to have 
Mee here.
    It is a really distinct pleasure to introduce Mee Moua, 
currently president and executive director of the Asian 
American Justice Center. Ms. Moua was a State senator in 
Minnesota, chair of the Judiciary Committee in our State 
Senate; but not only was she a State senator, she was the first 
Hmong American State legislator in United States history.
    I read Ms. Moua's testimony. It will be about uniting 
families and how important that is. And no one is better able 
to talk about families than Mee. She has just the most 
wonderful family. She is a pillar--was a pillar, now she is 
living here in D.C. in her new role, but just a pillar of St. 
Paul, of the Hmong Minnesotan community, and has the warmest 
home that I have ever been in. No warmer home than the Mouas', 
than Mee's.
    It is great to have you here, Mee.
    Thank you, Madam Chair.
    Senator Hirono. Thank you, Senator Franken.
    The debate on immigration reform has often focused on the 
needs of the business community. And despite the fact that 
immigrant women are about as likely to have a bachelor's degree 
as immigrant men, and women make up 51 percent of migrants in 
the U.S., employment-based visas go to men over women by a 
ration of 3:1. As a result, women are far more likely to 
immigrate to this country under the family based system. But 
this often means that they are here as dependent spouses 
without the ability to work legally.
    As we look to reform our immigration laws, we must consider 
how women and families will be affected. Historically, women 
have been treated as unequal in our immigration system, with 
citizenship tied to their husbands. In fact, 100 years ago, if 
a U.S. citizen woman married a non-citizen, she would lose her 
citizenship.
    I know firsthand that immigration is a women's issue and a 
family issue.
    My mother brought my brother and me to this country when I 
was a young girl to escape a terrible marriage at the hands of 
my father. He was an alcoholic and a compulsive gambler, and I 
did not get to know him much.
    Instead of watching our family continue to suffer, my 
mother made the courageous decision to seek a better life for 
us. So she plotted and planned in secret, and when I was nearly 
8 years old, we literally--my brother, my mom, and me, later my 
younger brother and grandparents--escaped to this place called 
Hawaii and this country called America.
    It is from my own experience as an immigrant that I believe 
immigration reform should make the family immigration system 
stronger, not weaker. And we should not ignore the challenges 
immigrant women face.
    The purpose of this hearing is to look at these challenges 
and how we should correct these problems in the debate on 
comprehensive immigration reform.
    We will hear about immigrant women in the workplace and the 
problems of exploitation that they often suffer. We will hear 
about the importance of family immigration to our communities 
and our economy. And we will hear about how comprehensive 
immigration reform should address the integration of 
undocumented women and children to fully participate in 
society. I look forward to a great discussion.
    Before I turn to introductions and witness statements and 
questions, I will first offer the opportunity to Senator 
Grassley to make an opening statement. Senator.

STATEMENT OF HON. CHUCK GRASSLEY, A U.S. SENATOR FROM THE STATE 
                            OF IOWA

    Senator Grassley. Thank you, Madam Chair. This is a very 
important hearing because immigration is something that is 
going to be worked on, I think, in both Houses of Congress. It 
is a long time in coming, and it needs to be worked on even 
though there are still big differences of opinion about exactly 
what should be done.
    We have a distinguished panel to testify. All of you have a 
passion for changing our immigration system and improving it 
for generations of families to come. This Congress has an 
opportunity to enact real reform, an opportunity to ensure that 
our welcome mat remains on display while upholding our 
longstanding dedication to the rule of law.
    Today people in foreign lands want to be a part of our 
Nation. In fact, almost a million people every year come to 
this country legally because we are a very welcoming country 
and always have been, and people will go to great lengths to be 
a part of our great society. We should feel privileged that 
people love our country and want to become Americans.
    Immigration reform is not an easy undertaking. I know this 
from 32 years of experience on this Committee. That is why 
Congress in 1990 authorized a bipartisan commission to review 
and evaluate the immigration system.
    In 1997, with the help of our witnesses, the United States 
Commission on Immigration Reform presented their findings and 
recommendations. They are just as important today as they were 
15 years ago. The Commission stated, ``A properly regulated 
system of legal immigration is in the national interests of the 
United States. Such a system enhances the benefits of 
immigration while protecting against potential harms.''
    The Commission also noted: ``Immigration contributes in 
many ways to the United States: to a vibrant and diverse 
community, to a lively and participatory democracy, to its 
vital intellectual and cultural life, to its renowned job-
creating entrepreneurship and marketplaces, and to its family 
values and work ethic.'' Yet they knew then what we know now: 
that there are costs as well as benefits from today's 
immigration.
    The Commission found many flaws in our immigration 
policies, and we have a long ways to go to make it perfect. It 
is in our Nation's best interest for future generations and 
future families to begin a serious discussion on how we can 
enact real reform that will sustain for years to come.
    All the witnesses before us are very important. I would 
like to talk about the witnesses that my side of the aisle was 
able to have on the panel.
    Ms. Martin will provide insight on how we should enhance 
our family immigration system, including the fact that Congress 
must set priorities and determine which type of immigration 
will serve the national interest.
    Dr. Panetta will bring a different perspective to the 
hearing, discussing how American engineers, particularly women, 
are being skipped over for high-skilled and high-paying jobs in 
the United States. She will discuss how the H-1 Visa Program is 
harming American engineers and how women may fall behind even 
more if we do not fix the program. Her testimony sheds light on 
the reasons why we need legislation in this area.
    I plan to introduce a bill today to ensure that American 
workers are given first opportunity at jobs in science, 
technology, engineering, and math. In fact, my bill would close 
loopholes in the program, reduce fraud and abuse, provide 
protection for American workers and for visa holders, and 
require more transparency in the recruitment of foreign 
workers.
    All of our witnesses are distinguished witnesses, and I 
thank all of you for participating in today's hearing.
    Thank you.
    Senator Hirono. Thank you, Senator Grassley.
    This afternoon, we are joined on the panel by Ai-Jen Poo, 
director of the National Domestic Workers Alliance and co-
director of the Caring Across Generations Campaign. Founded in 
2007, NDWA is the Nation's leading voice for the millions of 
domestic workers in the United States, most of whom are women. 
Ms. Poo has been organizing immigrant women workers since 1996. 
In 2000, she co-founded Domestic Workers United, the New York 
organization that spearheaded the successful passage of that 
State's historic Domestic Workers Bill of Rights in 2010. Ms. 
Poo serves on the board of directors of Moms Rising, National 
Jobs with Justice, Working America, the National Committee for 
Responsive Philanthropy, and the National Council on Aging. She 
has been recognized with the Ms. Foundation Woman of Vision 
Award, the Independent Sector American Express Engine 
Leadership Award, Newsweek's 150 Fearless Women's list, and 
Time's List of the 100 Most Influential People in the world. 
Impressive.
    Next is--you are all impressive, by the way.
    Next is Dr. Karen Panetta, professor of electrical and 
computer engineering at Tufts University and director of the 
Simulation Research Laboratory at Tufts University. She is also 
a fellow at the Institute of Electrical and Electronics 
Engineers and is the worldwide director of IEEE Women in 
Engineering. IEEE is the world's largest professional 
association dedicated to advancing technological innovation and 
excellence for the benefit of humanity. Dr. Panetta received a 
B.S. in computer engineering from Boston University and an M.S. 
and Ph.D. in electrical engineering from Northeastern 
University. She was also the first female electrical engineer 
given tenure in the Electrical and Computer Engineering 
Department at Tufts. Before joining the faculty at Tufts, Dr. 
Panetta was employed as a computer engineer at Digital 
Equipment Corporation. Her research in simulation and modeling 
has won her research team five awards from NASA for outstanding 
contributions to NASA research and excellence in research. She 
is a NASA Langley Research Scientist JOVE Fellow, is a 
recipient of the NSF Career Award, and won the 2003 Madeline 
and Henry Fischer Best Engineering Teacher Award.
    We are also joined by Mee Moua, president and executive 
director of the Asian American Justice Center. The AAJC is one 
of the Nation's premier civil rights advocacy organizations. 
AAJC works to advance the human and civil rights of Asian 
Americans and to build and promote a fair and equitable society 
for all. Ms. Moua leads AAJC's efforts to promote civic 
engagement, forge strong and safe communities, create an 
inclusive society, and empower Asian Americans and other 
underserved communities. Ms. Moua was a three-term Minnesota 
State senator, where she chaired the Senate Judiciary 
Committee. Born in Laos, Ms. Moua immigrated to the U.S. in 
1978. Mee Moua and I have been friends, and she certainly has a 
story to tell. She attended Brown University as an 
undergraduate, earned a master's degree in public affairs from 
the University of Texas, Austin, and earned a law degree from 
the University of Minnesota.
    Also on the panel is Professor Susan Martin, the Donald 
Herzberg Professor of International Migration at Georgetown 
University Law School--my alma mater, by the way. Professor 
Martin also serves as the executive director of the Institute 
for the Study of International Migration in the School of 
Foreign Service at Georgetown University. The institute 
provides balanced, multidisciplinary analysis of the 
complicated issues raised by immigration policy and law. A 
long-time expert on immigration and refugee policy, she came to 
Georgetown after having served as the executive director of the 
U.S. Commission on Immigration Reform, which made its final 
report to Congress in September 1997. Prior to joining the 
Commission staff, Professor Martin was the director of research 
and programs at the Refugee Policy Group, a Washington-based 
center for analysis of U.S. and international refugee policy 
and programs. She was assistant professor in the American 
Studies Department at Brandeis University and lecturer for the 
History of American Civilization at the University of 
Pennsylvania. Professor Martin holds a B.A. from Rutgers and an 
M.A. and Ph.D. from the University of Pennsylvania.
    Finally, we have Jennifer Ng'andu, the deputy director of 
the Health Policy Project of the National Council of La Raza. 
NCLR is the largest national Hispanic civil rights and advocacy 
organization in the United States and works to improve 
conditions and opportunities for Hispanic Americans. At NCLR, 
Ms. Ng'andu is responsible for the oversight of development and 
advancement of Federal policies aimed at improving the health 
status of Latinos and creating parity for immigrants in the 
health system. She provides expertise on health and nutrition 
policy, Affordable Care Act and health reform, access in health 
disparities for racial and ethnic populations, immigrant 
eligibility for health programs and public benefits, hunger, 
and obesity. Ms. Ng'andu holds a bachelor's degree in 
psychology from Duke University.
    At this point I would like to ask all of the witnesses to 
stand and raise your right hands as I administer the oath. Do 
you solemnly swear or affirm that the testimony you are about 
to give to this Committee will be the truth, the whole truth, 
and nothing but the truth, so help you God?
    Ms. Poo. I do.
    Ms. Panetta. I do.
    Ms. Moua. I do.
    Ms. Martin. I do.
    Ms. Ng'andu. I do.
    Senator Hirono. Thank you. Please be seated. Let the record 
show that the nominees have answered in the affirmative.
    I have a statement that I would like to read portions of 
from Senator Amy Klobuchar. She says:
    ``I want to thank all the witnesses for being here today. I 
had hoped to join you, but prior obligations in Minnesota and a 
snowstorm in Minneapolis have prevented me from making it back 
in time. I want to give a special welcome to my friend and 
fellow Minnesotan, Mee Moua.''
    You have a lot of fans here today, Mee.
    ``Mee has been an incredible advocate over the years on 
many, many issues. Most of the talk about immigration has 
centered on the plight of the undocumented, border security, 
and economic motivations for changing our laws. But family 
concerns are just as important, and we must ensure that our 
policies reflect family reunification as a top priority.''
    If there are no objections, I would like to enter Senator 
Klobuchar's full remarks into the record. Seeing no objections, 
we will proceed.
    [The prepared statement of Senator Klobuchar appears as a 
submission for the record.]
    Senator Hirono. Welcome once again to all of you.
    I would like to recognize each of the witnesses, starting 
from my left, so, Ms. Poo, if you would provide us with your 
testimony.

 STATEMENT OF AI-JEN POO, DIRECTOR, NATIONAL DOMESTIC WORKERS 
                  ALLIANCE, NEW YORK, NEW YORK

    Ms. Poo. Thank you, Chairwoman Hirono, and thank you, 
Senator Grassley and Senator Franken, for this opportunity. My 
name is Ai-jen Poo, and I am the director of the National 
Domestic Workers Alliance. We represent a growing work force of 
mainly immigrant women who take care of our children, our aging 
loved ones, and our homes. And I bring their spirit, passion, 
and hopes with me today.
    Women like Pat Francois, who is sitting behind me, a nanny 
in New York City for many years, Pat takes great pride in her 
role: arranging play dates, taking the children to the 
children's museum and the library, reading stories, playing in 
the park, and most importantly, keeping them safe. She makes it 
possible for her employers to go to work every day knowing that 
the most precious parts of their lives are cared for while they 
are gone. Millions of working moms and dads count on women like 
Pat in order to participate fully in today's workplace. But Pat 
is undocumented and cannot participate fully in our country 
that she now calls home.
    Today, women and children represent two-thirds of all 
immigrants in the United States. Unfortunately, past rounds of 
immigration reform debates have excluded women's experiences, 
which is why this Committee should be truly commended for 
holding this hearing.
    To move us to solutions, here are three basic conditions to 
ensure that millions of women are not left behind on the road 
to citizenship.
    First, the road to citizenship must be wide. Pat, like most 
domestic workers, does not have pay stubs to prove she worked 
for her employer. Her world, like much of the informal economy, 
is a paperless world. If the road to citizenship requires proof 
of employment at any stage, domestic and informal sector 
workers will be run off, along with the estimated 40 percent of 
undocumented women who are stay-at-home moms, which we also 
know is work. Instead, we can use proof of presence to 
determine eligibility both broadly and accurately.
    Second, the road to citizenship must have on ramps. 
Undocumented women like Pat are particularly vulnerable to 
abuse, sexual harassment, and severe exploitation, including 
trafficking. One of Pat's employers was verbally abusive for 
years while threatening to have her deported if she challenged 
him, until 1 day he physically assaulted her.
    Common-sense reform must include provisions like those--our 
current policies allow unscrupulous employers to wield the 
threat of deportation like a weapon. Common-sense reform must 
include provisions like those in the POWER Act, to ensure that 
women suffering serious workplace violations are protected and 
eligible for U visas.
    Third, the road to citizenship must take us into the 
future, acknowledging the increasingly critical role of 
immigrant women in the American economy. Currently less than 
one-third of all employment visas are given to women as 
principal holders. Yet 2011 marked the first year of the ``age 
wave,'' when the baby-boom generation has begun to turn 65 at a 
rate of a person every 8 seconds. That means that the demand 
for care workers, who are mostly women, is projected to 
increase by 48 percent over the next decade. But the population 
of U.S.-born workers who could fill this need is only growing 
by about 1 percent.
    We must create a highway into the future so that the 
workers we need, especially women, can come to work in the 
United States with their families, with full worker's rights, 
portability between employers, and the ability to obtain green 
cards and citizenship.
    Senators, many of you have relied upon babysitters or 
nannies to care for your kids, and many of you have 
housekeepers, and 1 day many of you may need elder care 
assistance. Who is going to take care of America as we age?
    In fact, it is hard to find anyone in America today whose 
life has not been touched by the care of immigrant women. 
Because we as a Nation count on them, we are counting on you. 
Women need reform, and we cannot wait. Hundreds of women have 
come to Washington this week to urge you to act swiftly, with 
full inclusion of women and their families, including LGBT 
families, because immigration reform is a women's issue. It is 
about women's equality, it is about keeping families together 
and strengthening families, and it is an economic issue key to 
the well-being of the entire Nation.
    Thank you.
    [The prepared statement of Ms. Poo appears as a submission 
for the record.]
    Senator Hirono. Dr. Panetta.

STATEMENT OF KAREN PANETTA, PH.D., PROFESSOR OF ELECTRICAL AND 
COMPUTER ENGINEERING, TUFTS UNIVERSITY, MEDFORD, MASSACHUSETTS, 
 AND VICE PRESIDENT, COMMUNICATIONS AND PUBLIC AWARENESS, THE 
 INSTITUTE OF ELECTRICAL & ELECTRONICS ENGINEERS-UNITED STATES 
                     OF AMERICA (IEEE-USA)

    Ms. Panetta. Thank you, Chairman Hirono, Ranking Republican 
Member Grassley, and Senator Franken and the other members of 
this panel. I am honored to be here today to testify on your 
theme: ``How Comprehensive Immigration Reform Should Address 
the Needs of Women and Families.''
    I represent IEEE-USA, the 206,000 members of the Institute 
of Electrical and Electronic Engineers in the United States. We 
are a professional society, the largest organization of 
technologists in the world, founded by Alexander Graham Bell, 
who was an immigrant, and Thomas Edison, who was not. That 
global perspective has always been a part of the IEEE-USA.
    We know innovation comes diversity of talents, and we seek 
the world's brightest individuals to work with as equals. IEEE 
knows that one of the world's most valuable resources that has 
been underutilized is women. That is why IEEE created the Women 
in Engineering Program and why I started a Nerd Girls program. 
So today's subject is critical.
    On behalf of the largest representative of America's high-
tech workers, let me get right to the point. If we truly want 
to help women and families, do not increase the H-1B Visa 
Program. Increase STEM green cards instead.
    As an engineer, I use data to identify how things break so 
we can prevent catastrophic failures. I am here today to tell 
you that the H-1B Visa Program is a place where our immigration 
system is broken. Who wants to double the number of outsourcing 
visas for companies who take American jobs, give them to 
temporary foreign workers, and then ship those jobs overseas? 
Yet that is what some in the Senate propose doing through the 
I-Squared bill.
    The IEEE-USA view is simple: we favor green cards, not 
guest worker visas. The greatest damage clearly results from 
offshore outsourcing. The official data from the Department of 
Homeland Security shows that all of the top 10 users of the H-
1B program and 15 of the top 20 are outsourcing companies. My 
written testimony documents this for each State.
    For all the talk about H-1Bs helping to create American 
jobs, the facts show something else. Look at Nielsen in 
Florida, Pfizer in Connecticut, the gaming industry in Nevada, 
just to name a few well-documented cases where American jobs 
were replaced by outsourcing.
    In my written testimony, I review the four primary 
arguments made in favor of H-1B and show how in each case the 
arguments do not match the data.
    For example, employers will argue that it takes too long to 
get a green card. Absolutely correct. But it is not an argument 
for the H-1B. It is an argument for enabling employers to get 
green cards for workers when they are hired. We strongly 
endorse Microsoft's recent proposal to pay a total of $25,000 
in fees to take foreign STEM graduates from their student visa 
to a green card. No need for an H-1B. It is a principle. If an 
employer is willing to pay a substantial fee for a worker who 
supposedly possesses skills that the employer cannot find in 
American applicants, then that company should be eager to 
sponsor that worker for a green card immediately. This would be 
a solid proof that that employer actually needs that person's 
skills.
    But we are talking about the impact of comprehensive 
immigration reform on women and children. The contrasting 
treatment of families in the H-1B program compared to green 
cards actually mocks our values. Most of the 220,000 nuclear 
family backlog counted by the State Department are spouses and 
children of employment-based permanent immigrants, separated 
because they received their green cards and then got married.
    As software consultant Matt Arivalan testified to the House 
Judiciary Committee last week, he said: ``I was shocked to find 
that because I had made a commitment to America, my wife must 
wait in another country for years. If I was just a temporary 
worker, my wife would not be 12,000 miles away.''
    Finally, let me warn the Committee about the obstacles 
which the H-1B creates for American women in STEM fields. It is 
hard to get promoted when you do not get hired in the first 
place. The existence of this preferred pipeline for new hires 
has hugely discouraging effects on independent American women 
considering the STEM fields. Why? Because my own experience 
tells me that the vast majority of H-1B workers are men, and 
this does not make for a diverse work force or work 
environment.
    IEEE-USA represents more high-tech workers than anybody 
else. One from inside the industry, looking at the offshoring 
companies that dominate the H-1B program, tells us that their 
global hiring is 70 percent. But in the U.S., where outsourcing 
companies get more than half of the capped H-1B visas, the 
ratio is more like 85 percent men. Shouldn't this raise a red 
flag?
    But as an engineer, I do not like making decisions without 
hard data. IEEE-USA has been trying for months to get the 
actual data from DHS. It is a simple question: How many women 
get H-1B visas?
    So we urge this Committee to include this data in their 
investigation to better understand the effect the legislation 
will have on women and families. More green cards for advanced 
STEM students, men and women, is the way to go, as IEEE and so 
many others have urged?
    Green cards do not create a disincentive to hire 
Americans--including American women--the way H-1B does. That is 
because the green card means the new American is treated as an 
equal. Isn't that what our immigration system is supposed to 
do--help our economy and new families?
    Let me conclude by thanking the Committee for the honor of 
being asked to testify. I want to particularly thank Senator 
Grassley for his leadership on the issue and for his H-1B 
legislation to be introduced this week. I will be happy to 
answer any questions in my areas of expertise.
    Thank you.
    [The prepared statement of Ms. Panetta appears as a 
submission for the record.]
    Senator Hirono. Thank you.
    Ms. Moua.

STATEMENT OF MEE MOUA, PRESIDENT AND EXECUTIVE DIRECTOR, ASIAN 
            AMERICAN JUSTICE CENTER, WASHINGTON, DC

    Ms. Moua. Madam Chair, Senator Grassley, and Senator 
Franken, thank you so much for the opportunity to be here with 
all of you on behalf of the millions of Asian Americans and 
Pacific Islanders all across this country. It is a pleasure to 
be in this historic hearing highlighting how comprehensive 
immigration reform should address the needs of women and 
families.
    When I was 9 years old, my family came to the United States 
as political refugees. Our people's role as special guerilla 
unit fighters for the United States during the secret war in 
Laos rendered us displaced and homeless after the U.S. 
Government left Southeast Asia. To save our lives, we were 
forced to flee in secrecy, leaving behind our home and our 
loved ones.
    When we arrived in the United States, my grandfather, my 
uncle, and our only aunt remained trapped in Laos. One uncle 
was at a refugee camp in Thailand, and another uncle was 
resettled in France. When they were eligible, my parents 
studied hard for their citizenship exams in the hope that they 
would be able to bring my grandfather and my uncle and his 
families to the United States.
    Unfortunately, my grandfather passed away before my father 
could become naturalized. Shortly thereafter, my uncle also 
passed away while imprisoned in a political work camp.
    In 1996, my parents tried to sponsor the one uncle in 
France, but the process took so long that by the time they were 
eligible to come to the United States, they decided to remain 
in France because their children were already married and had 
their own families.
    The separation and hardship experienced by my father and 
his siblings underscored the heartache and disappointment many 
immigrant families endure in their search for family 
reunification. The lucky ones are able to overcome life 
circumstances and delays to eventually succeed, but far, far 
too many simply just give up.
    The purpose of today's hearing is to dig deeper into the 
realities of our family based immigration system and understand 
how it affects women, children, and families. The principle of 
family unity has long been a core value of our immigration 
policies in the United States, and family based immigration has 
been a central pillar of our current legal immigration system.
    Since our founding as a Nation, each wave of new immigrants 
and their families have strengthened our communities, enriched 
our culture, and the fruits of their entrepreneurial spirit 
have strengthened our middle class and invigorated our economy.
    Unfortunately, the U.S. immigration system is badly broken 
and outdated with the unintended consequences of separating 
mothers from daughters, brothers from sisters, and wives from 
husbands.
    As of November 2012, nearly 4.3 million close family 
members were waiting in the family visa backlogs. Latino and 
Asian American families are affected the most by these long 
backlogs, with over 1.3 million waiting in Mexico and over 1.8 
million waiting in numerous Asian countries.
    Like that experience by my family, many American families 
have been waiting years, even decades, to be reunited with 
their loved ones. For other families, our dysfunctional legal 
immigration system forces them to choose between remaining 
apart for years on end or remaining in the shadows as 
undocumented immigrants for the chance to be with their 
families.
    In Pacifica, California, a committed and loving family of 
four faced separation under our current immigration system. Jay 
and Shirley--Jay is a U.S. citizen and Shirley is originally 
from the Philippines--are the parents of twin sons. Shirley and 
Jay have been together for more than 20 years, but because Jay 
is unable to sponsor Shirley for residency, their family was 
nearly torn apart when, in 2009, ICE agents arrested Shirley in 
front of their children and attempted to deport her back to the 
Philippines. Shirley, Jay, and their twins, who were profiled 
in People magazine, are depending on Congress to include GLBT 
families in immigration reform to ensure that they have a 
permanent solution to remain together in this country.
    While Jay and Shirley's story highlights how our current 
immigration system discriminates against GLBT families by 
prohibiting citizens and legal permanent residents from 
sponsoring their permanent partners for immigration purposes, 
the heartache and hardship they endured as they were forced to 
make hard choices is representative of the real experiences of 
many immigrant families across this country. This is simply 
unacceptable and does not live up to our ideals as a Nation 
that values families and fairness.
    Given this broader picture as the backdrop, I want to now 
turn to the fact that women immigrants are disproportionately 
harmed by our broken system. We know that approximately 69.7 
percent of all immigrant women attain their legal status 
through family based visas, compared to 60 percent of men. 
Since women are more often denied access to resources and 
education and face social constraints in their home countries, 
they are overrepresented among family based immigrants and 
underrepresented among employment-based immigrants.
    In those circumstances where they are the dependents of a 
male visa holder, women are not legally allowed to work under 
our current system and, therefore, are completely tied to their 
spouse. This creates an imbalance of power, which renders women 
wholly dependent on their spouse and in some unfortunate cases 
particularly vulnerable to an abusive partner.
    An immigration system that disadvantages women as an 
unintended consequence inevitably hurts families and 
communities. Immigrant women, like all women, keep their 
families together, invest in their children's education, engage 
in their communities, and contribute to the growth and to the 
prosperity of our economy.
    In 2012, we witnessed a historic election. Immigrants, both 
Latinos and Asian Americans and Pacific Islanders, play a key 
role in our electoral outcomes. They vote in unprecedented 
numbers, and they overwhelmingly support a vision of inclusion 
and fairness while rejecting xenophobic policies that pit 
communities against one another. High-income earners versus 
low-income workers and new Americans versus the more 
established communities.
    In the last 3 months, you, our elected representatives, 
have made it clear that you intend to keep the faith with the 
American people to deliver a common-sense fix to our broken 
system.
    Today I stand with these panelists to urge you to ensure 
that women and their families remain at the core of your 
solutions, that the fix of our broken family immigration system 
addresses among other critical issues the inhumane backlogs for 
families and workers, and that it provides balance and 
flexibility for a comprehensive system that values all family 
members, including our brothers and sisters, children of all 
ages, and LGBT families.
    Whether it was through the Mayflower, Ellis Island, Angel 
Island, or now all the ports of entry, most immigrants came to 
the U.S. with nothing but hope and their families. Regardless 
of the hardships they encountered or endured, hope and family 
permitted each successive generation of immigrants to muster 
the courage to survive, persevere, and make a deeply rooted 
life in this country. We may all come from different national 
origins, eat different foods, practice different religions, and 
even speak different languages, but the immigrant heart is what 
binds us as one people--united in hope and opportunity for a 
more prosperous future for all of our families. That is why we 
love this land, and for those who are working hard for our 
prosperous economy, let our policies also work hard for them.
    Thank you.
    [The prepared statement of Ms. Moua appears as a submission 
for the record.]
    Senator Hirono. Thank you.
    Ms. Martin.

 STATEMENT OF SUSAN F. MARTIN, DONALD G. HERZBERG PROFESSOR OF 
 INTERNATIONAL MIGRATION, GEORGETOWN UNIVERSITY, WASHINGTON, DC

    Ms. Martin. Thank you, Madam Chair, Senator Franken, thank 
you for providing this opportunity to testify this afternoon.
    I have been asked to discuss relevant findings and 
recommendations of the Commission on Immigration Reform, which 
I served as executive director, as well as my own views on 
immigration issues. I am pleased to do so. Although the 
Commission's report was issued 15 years ago, many of its 
recommendations remain as relevant today as they were in 1997.
    I should also note that the recommendations of the 
bipartisan Commission were adopted unanimously or in certain 
instances by a vote of 8-1, showing substantial bipartisan 
support for credible immigration policy.
    Let me begin with the Commission's overall perspectives on 
legal immigration.
    First, the Commission considered a robust legal immigration 
system to be in the national interest of the United States. It 
argued that immigration policy should serve three core 
interests and that all of these were equally important: 
maintaining family unity, encouraging economic competitiveness, 
and preserving U.S. humanitarian leadership in the world, and 
that these are served through family reunification, employment-
based, and refugee admissions, respectively.
    Second, the Commission did not believe that there is a 
magic, a priory number of immigrants that should be admitted to 
the United States. Rather, numbers should be readily adjusted 
to address changing circumstances in the country and the world. 
It is well to note that current family and employment-based 
admission numbers were set in 1990 and have not been changed in 
the intervening 23 years, despite major changes in the country 
and the composition of our population.
    Third, the Commission believed that priorities should drive 
admission numbers and not the reverse. At present, our 
immigration system is largely managed through backlogs and 
waiting lists. Ceilings have generally been assigned in an 
arbitrary manner, often as a result of political compromise 
rather than empirical evidence as to the likely demand for 
visas' different categories. The Commission instead recommended 
a true preference system in which all demand is met in the 
highest categories in a timely way.
    Let me turn to how these principles translated into 
specific recommendations related to family reunification. The 
backlog of applications for all of the numerically limited 
family categories had expanded quite significantly at the time 
of the Commission's deliberations. The Commission recognized 
that all of these categories were important to segments of the 
population within the U.S. The members' judgment, however, was 
that there is a special bond between spouses and between 
parents and minor children that necessitates the most rapid 
family reunification in these instances, regardless of whether 
the sponsor in the U.S. is a U.S. citizen or a legal permanent 
resident. Not only is the immediate family the basic building 
block of society, but there is also a legal and fiduciary 
responsibility for spouses and minor children that do not exist 
in relationship to adult children or siblings of adult 
sponsors.
    The Commission was fully supportive of maintaining the 
numerically unrestricted admissions categories for spouses, 
minor children, and parents of U.S. citizens and recommended 
that sufficient visas be allocated for the admission of all 
spouses and minor children of legal permanent residents within 
no more than 1 year of application. The Commission also 
recommended that adult children who were dependent on their 
parents because of physical or mental disability be included in 
these admission categories.
    At present, according to the State Department Visa 
Bulletin, spouses and minor children who applied 2\1/2\ years 
ago are now eligible to enter the country, which seems to be a 
violation of that principle of very rapid family reunification.
    The Commission, recognizing that there were concerns about 
an infinite number of visas being offered at any given time, 
recommended the elimination of the admission categories for 
adult children and siblings, despite recognizing that there are 
very good reasons to continue to have a very expansion family 
reunification process.
    Currently we offer a few visas to many different family 
categories, however not enough visas to any one category.
    If you look at the category for the brothers and sisters of 
U.S. citizens worldwide, there is now a delay of 12 years 
before admission. If you are applying from the Philippines, 
because of the per country limits, it is a 24-year wait. That 
does not appear to be rational, and particularly not to be 
bringing in people beyond their projected working years and 
toward the period in which they will be retiring.
    The Commission did not address the phaseout of these 
categories, so I speak personally on this issue. Given that 
many U.S. citizens have petitioned for their adult children and 
siblings, assuming that the system would remain as it is, my 
recommendation would be to balance the interest in a more 
efficient system for family reunification with preserving 
enough visas to permit the admission of those already in the 
queue before changing our overall policies.
    Changing these policies is particularly important in the 
event that the Congress will determine to regularize the status 
of those who are currently undocumented in order to ensure that 
we do not have a return of the very extensive backlogs that we 
had in the 1990s for the spouses and minor children of the 
IRCA-legalized population.
    Let me finish with just three quick other points. I know I 
am running over.
    One is that in addressing the needs of women, we need to be 
thinking very carefully with regard to ways of still increasing 
and improving the implementation of the Violence Against Women 
Act as it pertains to women. Fortunately, that Act was 
reauthorized recently. But we still have a problem ensuring 
that immigrant women and children who were abused have access 
to the information, legal, and economic resources that will 
permit them to benefit from the terms of the legislation.
    Similarly, in terms of the Trafficking Victims Protection 
Act, also reauthorized this year, there is a disparity between 
the numbers granted the T visa for protection of trafficking 
survivors and the estimated total numbers of trafficking 
victims in the U.S. Between 2002 and 2012, DHS has only 
approved 3,269 applications.
    We still lack the tools to identify trafficking victims and 
help the survivors gain access to the type of legal assistance 
as well as safe houses and other services that are needed to 
ensure their protection.
    Then a final point is in relationship to long delayed 
legislation to remedy problems in our asylum, detention, and 
refugee resettlement programs as they apply to women and girls. 
The Refugee Protection Act, introduced by Senator Leahy, 
includes important provisions that would help facilitate family 
reunification for refugees and asylees; eliminate the 1-year 
filing deadline for asylum applications, which hinders the 
ability of women who have been raped and suffered other 
atrocities from coming forward; and changes in provisions that 
currently deny asylum and resettlement to those who provided 
material support to an insurgency, even if that support was 
coerced, as in many of the cases of rape.
    To conclude, comprehensive immigration reform should 
recognize that family unity is a core value. Ensuring speedy 
reunification is in the national interest of the country. 
Strong families make strong communities, which in turn make for 
a strong nation. Setting priorities to accomplish this goal 
would immeasurably strengthen U.S. immigration.
    [The prepared statement of Ms. Martin appears as a 
submission for the record.]
    Senator Hirono. Thank you.
    Ms. Ng'andu.

   STATEMENT OF JENNIFER NG'ANDU, DIRECTOR, HEALTH AND CIVIL 
RIGHTS POLICY PROJECTS, NATIONAL COUNCIL OF LA RAZA, ARLINGTON, 
                            VIRGINIA

    Ms. Ng'andu. Good afternoon, Chairman Hirono, Senator 
Franken. On behalf of the National Council of La Raza, I thank 
you for the opportunity to be here today. I have been proud to 
work for NCLR for the past 9 years, where I direct their Health 
and Civil Rights Policy Projects. We have been engaged in key 
debates and legislative efforts to make sure that we improve 
and promote life opportunities but, most importantly, the 
health and well-being of Latino families. And as we represent 
some 300 affiliates, local community-based organizations around 
the country, we see firsthand how they are each day working to 
integrate these Latino families, some immigrants, some not, and 
ensure that they pursue the American dream.
    It is important to elevate the role of women with any 
immigration reform conversation, and to that end, the fact is 
that family immigration has been the essential road map to 
citizenship for generations of Americans in pursuit of a better 
life. Immigrant families are among the most economically mobile 
within our country, and the women in these families are often 
the drivers of that success. Women urge their families to 
integrate, to learn English, engage in civic duties of all 
kind, and achieve citizenship.
    On the whole, immigrant women and their families are net 
contributors to their country, and they come here willing to 
pay their fair share and take up the rights and 
responsibilities of their fellow Americans. But there are often 
gross misrepresentations of how they live within our country, 
including overinflated assessments of their use of benefits.
    So I start by setting the record straight. Many people are 
largely unaware of the fact that all immigrants, lawfully 
present or not, face restriction to public benefits. And 
undocumented immigrants are almost entirely banned from most 
major public health coverage and safety net programs.
    Lack of access is often buffered by their lower ages, 
strong presence in the work force, and positive health 
behaviors. Immigrants are not only less likely to use benefits, 
but when they actually do receive access to a program, they are 
also likely to use a lower value of them.
    To be sure, lower utilization of benefits does have some 
negative consequences. Immigrants who are yet to be naturalized 
have very high uninsurance rates--in fact, it is almost 60 
percent--and they and those within their families are likely to 
experience certain hardships, such as food insecurity.
    NCLR's own focus groups conducted in 2009 provide warning 
of the tradeoffs that immigrants may take up without viable 
insurance options. Many participants, moms and dads, within 
mixed immigration status families noted that they had put their 
families at severe financial risk in order to make sure that 
their children had essential health care. When it came to their 
own health needs, the majority went without, compromising their 
own well-being while trying to preserve their children's.
    The irony is that, despite immigrants' eagerness to take on 
shared responsibility, the system does not always let them in. 
Take, for instance, the recent changes to the health care law 
that created the first-ever statutory restriction to the 
private health insurance market. Beginning in January 2014, 
immigrants without legal status will no longer be able to 
purchase insurance in the private insurance marketplace that 
other uninsured Americans will use. Despite the prohibitive 
costs of insurance, somehow 375,000 undocumented immigrants 
have found a way to purchase insurance on their own, and while 
the employer-based market has been a source of coverage to some 
3 million undocumented immigrants, there is a question of 
whether that market will provide the same opportunities since 
it has been eroding.
    I ask you, Does it make sense to prevent immigrants from 
buying insurance, an action that could bolster the market for 
millions of Americans?
    Furthermore, the immigrant restrictions ensure a 5-year bar 
to public programs such as Medicaid and the Supplemental 
Nutrition Assistance Program, or SNAP. It can be devastating 
when someone falls on hard times. And I would give an example 
of an immigrant victim of domestic violence who is petitioning 
here under the Violence Against Women Act. She is barred from 
SNAP and other programs for 5 years, and many immigrant women 
have cited that those dangerous situations keep them--that 
leaving those dangerous situations actually creates additional 
economic challenges, including risk of hunger.
    I end by emphasizing that Americans support the complete 
road map to citizenship and that the full opportunity to 
participate is one that they support as well. Health care and 
social services may not be a part of the core process to meet 
citizenship requirements, but many of these programs and 
services underpin this ultimate aim.
    It is common sense that immigrant families who pay their 
fair share of contributions are allowed to take part in the 
systems that are fundamental to American life. We should also 
recognize that while some families will fall on hard times and 
need resources, so many of them will come out ahead if we just 
make a small investment in their well-being. Each policy 
investment in immigration reform must be mindful of America's 
pocketbook, and maximizing citizenship should be the primary 
focus.
    By the same token, it comes down to a simple adage: ``Penny 
wise or pound foolish.'' Giving immigrant women and families 
the tools for full integration now will pay off in their 
contributions later.
    [The prepared statement of Ms. Ng'andu appears as a 
submission for the record.]
    Senator Hirono. Thank you very much to all the panelists.
    Before we get to our 7-minute rounds of questions, I would 
like to ask unanimous consent that an open letter to the 
President and all Members of Congress on ensuring access to 
affordable health care and needed nutrition assistance and 
immigration reform, signed by 360 organizations from across the 
country, be entered into the record. Hearing no objections, I 
will be entered into the record.
    [The letter appears as a submission for the record.]
    Senator Hirono. And I would also like to ask unanimous 
consent to put the statement of Chairman Leahy into the record. 
Without objection, so entered.
    [The prepared statement of Chairman Leahy appears as a 
submission for the record.]
    Senator Hirono. We will now start on 7-minute rounds of 
questioning. I will begin.
    First of all, once again I want to thank all of you for 
coming and testifying today.
    Ms. Poo, you talked about how difficult it would be should 
we create a pathway to citizenship for people, particularly 
women, to have the kind of documentation that we might require 
of them, and we had this experience when we had so-called 
amnesty a couple of decades ago.
    So, once again, to ensure that we learn from the past and 
allow mainly women to get on to the path, an earned path to 
citizenship, how would you want us to--what kind of 
requirements should we place on mainly women, domestic workers 
and others like them, to get on this path?
    Ms. Poo. Thank you, Chairwoman, for the question. I think 
that there are many solutions to this problem to ensure full 
inclusion. One is in terms of offering--allowing people to 
submit affidavits that prove their presence in the country, 
like past frameworks for immigration have in the past asked 
for, proofs of presence as opposed to proof of employment. This 
would allow people who work in the paperless informal economy 
to be able to prove that they have been in this country and 
contributing and building communities, which many have.
    I think some level of flexibility that accounts for the 
many different kinds of institutions within the community that 
can vouch for presence. Community organizations, institutions 
like churches, many people can vouch for the presence.
    Senator Hirono. So the main thing is to allow some level of 
flexibility and ability to have multiple ways that one can 
prove that they have been in this country.
    Ms. Poo. Absolutely.
    Senator Hirono. Even if without documents.
    Ms. Poo. Exactly.
    Senator Hirono. Thank you.
    Ms. Panetta, I take it that you are very much against the 
H-1B visas, and instead you would support something like the 
STAPLE Act, which Senator Flake introduced when he was a Member 
of the House.
    How many women do you think would be able to come in 
through the STAPLE kind of legislation?
    Ms. Panetta. Well, first of all, let me say I am not 
against the H-1B or my organization is not against H-1Bs. We 
are against H-1Bs for use of permanent jobs that are supposed 
to be temporary positions. Right now the H-1B is being--we are 
against trying to use it as a purgatory to try and buy an 
individual for 6 years without a commitment to a green card. So 
that is what we are against. And we are against outsources, 
using it for that purpose. There are genuinely valid cases for 
using it for temporary workers, so we are not 100 percent 
against it.
    Senator Hirono. Thank you for that clarification.
    Now, we have heard testimony that there really is a huge 
disparity in the women who get to come under a work visa 
program, and you are suggesting that we go with a STAPLE Act 
kind of process. Do you have any sense as to how many women 
would be able to come in through that kind of visa?
    Ms. Panetta. Well, I can tell you, one of the problems that 
we have here in the United States is that 18.4 percent of all 
undergraduate degrees in engineering go to women, so it is a 
huge issue, and we know that in engineering, or all the STEM 
disciplines, that we just need more engineers total. So to get 
more women--and we know that in countries like India, some of 
the top graduates are women, and yet they do not get 
opportunities to come here.
    So by providing STEM-educated people with the opportunity 
to come to the United States, men and women, we believe that 
that would be able to make an impact on the number of women and 
diversity in the work force, which has also huge cultural work 
environment implications. So we are hoping that we are not just 
addressing numbers but we are changing work cultures as well.
    As for specific numbers, I could not give you a ballpark 
number since we--I could get back to you with that, though, 
from our organization if we could actually do some data mining 
for you.
    Senator Hirono. Thank you. I think you noted in your 
testimony that you were involved with creating the Women in 
Engineering Program, and I commend you for that because I am 
familiar with that program in Hawaii.
    Ms. Moua, as we read in the Washington Post recently, there 
might be an idea to either limit dramatically or eliminate 
certain kinds of family visas, mainly for adult children or for 
siblings. What kind of impact do you think that would have on 
family reunification?
    Ms. Moua. Thank you, Madam Chair. As we know, the system is 
badly broken, and the evidence can be found in the long 
backlogs, visa backlogs that we are experiencing on a daily 
basis. It is concerning to us that there is a proposal on the 
table for consideration to eliminate married adult children as 
well as the brother-sister category.
    We all know that as immigrants our families are part of our 
network, our family is what permits us to be able to set root 
and really build a life together in this country. And based on 
what I have just shared with you about my father's experience, 
you know, when you contemplate a long-term life, creating a new 
home, wanting to really set root, you want your families to be 
around you. And the idea of eliminating the third and fourth 
preference is concerning to, I think, all immigrant 
communities.
    In particular, Madam Chair, I would like to really 
highlight the fact that if those categories were eliminated, 
unless some alternative provision was put on the table, I think 
that it would disproportionately affect women and their 
families, because as I had stated in my testimony, over 67, 68 
percent of women come to this country through the family base 
and less through the employment base. And I think that if we 
were to eliminate those categories, brother-sister sponsorship, 
sister-sister sponsorship, it would have a pretty 
disproportionate impact on women.
    Senator Hirono. I recently heard the situation of a person 
whose parents--she is a naturalized U.S. citizen now, having 
come with a green card, and her only surviving family member is 
a brother, and so this person has been waiting for over 6 years 
for the brother to come. And so there are those kinds of 
circumstances that perhaps we--that we should be aware of.
    Ms. Ng'andu, you talked about the safety net and the access 
to various kinds of social programs, and the people who are 
here with visas have to wait 5 years before they can access 
certain kinds of programs. So let us assume that we do provide 
an earned path to citizenship. Knowing that the people here 
with the visas, they have to wait 5 years, what do you think 
would be an appropriate length of time for those who are on the 
path to citizenship, they do not have a visa, yet what would be 
a reasonable period of time, do you think, for them to wait 
before they can access social services? I know that we would 
want them from day one, but let us talk about if that is really 
not in the offing.
    Ms. Ng'andu. Thank you, Madam Chairwoman. Going back to the 
adage, ``Penny wise and pound foolish,'' we do not want to see 
waiting periods for these legal immigrants to these programs 
because we recognize that there is a chance that they fall on 
hard times and that they may need access to these programs.
    The other thing that I will say about that is that it is 
important that we provide opportunities for immigrants to pay 
their fair share and get into the system. So if we can provide 
access to things like private market coverage, encourage 
employers to provide health coverage to their employees, then 
we can bolster up the system, and that makes it better for 
Americans.
    By and large, immigrants are using less health care 
services, and so what we would say is that it is important to 
create that structure for individuals who do fall on hard times 
to be able to access certain particular safety net services so 
that they are able to get the preventive types of care that 
they need.
    And I will just give you one example of that. We have 
eliminated the 5-year bar as a State option for pregnant women 
and children for certain types of lawfully present immigrants, 
and for every $1 invested in prenatal care, we save $4 out of 
that. So we understand that that is going to be a really 
important savings across the system.
    Senator Hirono. So you would say that at the very least, 
for those people who are here undocumented, that at the very 
least they should not be having to wait longer than those who 
are here with green cards to access certain services?
    Ms. Ng'andu. What I would say is that Americans support 
actually providing health care to legalizing immigrants, to 
gain access to the health care services they need. And, 
actually, the Kaiser Family Foundation just did a poll, and a 
broad set of Americans across all sorts of backgrounds actually 
said that if someone cannot get coverage through their 
employer, then as part of the integration process, those with 
provisional status, using the lingo that is being used right 
now, should either be given access to Medicaid without the 
waiting periods or be given access to what are now the new 
health insurance exchanges that will be implemented in 2014.
    So I think people back this idea that someone who is coming 
here and who says that they want to take on the 
responsibilities of Americans also gets the ability to have the 
rights and be integrated into that process.
    Senator Hirono. So with regard to health care, then, if we 
do, let us hope, comprehensive immigration reform, then we can 
take care of the prohibition in the Affordable Care Act that 
disallows non-citizens from even being able to purchase health 
insurance, that we need to address that in a very specific way 
to allow those on provisional status to be able to go to the 
health exchanges or to pay for their health care insurance.
    Ms. Ng'andu. Well, and I think it just makes sense. You 
know, if we have 375,000 undocumented immigrants today who now 
have to go into a virtual black market of health insurance to 
buy their insurance because they cannot be a part of the 
legitimate system, then that is a problem. And I think 
comprehensive immigration reform, it is all about making sure 
that we have a legitimate system, that we are fixing the broken 
mess within our system. And so that means that we need to 
actually revisit the other infrastructures that actually keep 
immigrants from participating in our society.
    Senator Hirono. Thank you.
    Senator Grassley.
    Senator Grassley. Thank you, Madam Chairman.
    I am going to start with Dr. Panetta. You talked about how 
many H-1B visa holders in the United States are male. Some 
researchers in this field suspect that 70 percent of an 
offshoring firm's work force is comprised of men.
    First of all, an explanation from your point of view of 
such an imbalance, and why are more men than women coming into 
the country on H-1Bs?
    Ms. Panetta. Well, first of all, there are more men out 
there coming in because companies are hiring them, and 
companies decide who they want to hire. And in the case where 
you are offered somebody that you can put on trial and try out 
for 6 or 7 years, or 6 years without a promise of a green card, 
it is more in the benefit of a company to have this more ``try 
them out before you buy,'' worth more investing in an American.
    So I would say that one of the problems that we have to 
look at is why aren't women being allowed to come in, and that 
maybe the hiring types of things that are going on in companies 
is an issue.
    These are supposed to be temporary work visas, and one 
company might argue, well, women do not want to come here on 
temporary work assignments. But, in fact, a lot of these visas 
are being used for permanent positions.
    So to answer your question, Senator, I believe that more 
men are coming simply because companies prefer to hire the men 
over the women.
    Senator Grassley. OK. Professor Martin, and also to 
apologize to you and Ms. Moua, I missed your testimony because 
I had a meeting with our Lieutenant Governor for a short period 
of time. I am sorry.
    Professor Martin, you discussed the Commission's 
recommendations to eliminate the admissions category for adult 
children and siblings. You said that the long waiting times in 
these categories undermined the credibility of the admissions 
system. I see your point about providing false hope to many 
people who may have to wait a dozen years or more to be 
eligible for a visa.
    Could you tell us how Congress should change the system 
going forward? Should it be an immediate change or a phase-out 
approach?
    Ms. Martin. Thank you, Mr. Grassley. As I said in my 
testimony, I am speaking here personally about the way in which 
the proposal should be implemented. In my view, it should be a 
phased-in process. I think that the very large number of 
Americans who have sponsored brothers and sisters and adult 
children--the very large number of U.S. citizens who have 
sponsored adult children and brothers and sisters who have gone 
by the rules, have followed the procedures that are in place, 
are owed a certain level of respect for that process. And my 
recommendation would be to provide additional visas for a 
transitional period that would allow the backlog to be cleared 
and do it in a very expeditious way, because it makes no sense 
to let it drag out for 12, 15, 20, 25 years, but that in the 
meantime, new applications not be accepted so that as we move 
forward, we will not be adding to the waiting list.
    Senator Grassley. I will continue asking you another 
question. What lessons can we learn from the 1986 legalization? 
I was on the Committee talking about the same issues back in 
the 1980s. We had the same problems then, and we thought that a 
legalization program would solve it once and for all. So when 
it comes to once and for all, I have to say we were wrong. The 
problem got worse, and backlogs continued.
    So what can Congress learn from 1986? And, second, if we 
passed another legalization program for the 11 million 
undocumented people and the family-based preference system 
stayed the same, what would be the consequences?
    Ms. Martin. Let me start with the first part of your 
question, which has not been the particular topic for this 
hearing, but I think the lessons of the 1986 law is that if you 
legalize without taking steps to address the future flow of 
undocumented migrants, you have a problem in terms of having to 
deal with that issue again a few years later.
    I think that problem has to be dealt with through a 
combination of enforcement, particularly in the work site, but 
new channels for legal immigration to meet legitimate demand 
for workers. So it has to be some combination of work site 
enforcement plus new work site programs. And I tend to agree 
with Dr. Panetta that it makes no sense to use temporary 
programs for permanent jobs, but we do also have temporary 
jobs, and temporary programs do make some sense in that 
context.
    I am very much supportive of an earned regularization 
program. In response also to Senator Hirono's question before 
about how to make sure that it operates properly, I think it 
should be as simple, as straightforward as possible. The more 
documentation that we require of people means that--part of 
what happened in IRCA was it became the full employment for 
counterfeiters bill, because if you make demands that are 
unattainable, people will find a way around them. So I think we 
should be quite straightforward and very simple in terms of our 
provisions.
    With regard to family reunification, the IRCA legalization 
did not initially include a family unity provision. That was 
adopted in 1990. That would make it easier for families to come 
together. I would hope that any new formulation takes into 
account from the very beginning that many of the legalized will 
have spouses and minor children still in their country of 
origin, and that that be taken into account, and that we have 
sufficient visa numbers to allow expeditious family 
reunification in those cases so we do not buildup the kind of 
backlogs that we saw in the 1990s.
    Senator Grassley. Dr. Panetta, you touched on the Optional 
Practical Training program, OPT. I am interested in knowing how 
students you have mentored have been treated as an OPT worker. 
There are no wage requirements or numerical limits. Last May, I 
asked the Government Accountability Office to review the 
programs, including the controls in place to prevent fraud and 
abuse. I am still waiting for the report. There is widespread 
belief that employers use the program to gain the expertise and 
labor of foreign students without having to pay for it. In 
Fiscal Year 2010, over 95,000 OPT applicants were granted; very 
few applications are denied. There are very few controls in 
place to ensure that these foreign workers are not mistreated. 
There is also no requirement that a company first recruit and 
hire an American student with the same skills.
    Two questions: What has been your experience with the OPT 
program? And do you have any insight on how students are being 
treated on that program?
    Ms. Panetta. Thank you for that question, Senator, because 
the reason I am here before you today is because of my 
experience that I have seen over 18 years of my students being 
tortured by this process.
    Students get hired on OPT and have up to 29 months to get 
promoted to an H-1B, which should not be a bridge to the green 
card. They come, we educate them here; sometimes our Government 
pays for their education, and then they want to stay and they 
want to be citizens of the United States.
    What happens is they get their practical training 
certificate. They get to work for a company. That company then 
never gives them a definitive, honest offer of what they will 
see, and then they let that time elapse up until the point that 
the person gets very uncertain about what their future is. No 
one wants to know--with a month left on their OPT, whether they 
are going to have a job or whether they are going to be shipped 
off, and that has been the case.
    The students that I have worked with have worked long 
hours, 16-hour days, never questioning, very complacent because 
they know that if they ask questions or if they make waves, 
even on their pay, a lot of them have come back and shown me 
the same person in the same job getting paid substantially 
magnitudes less, they are getting paid much less than those 
individuals. And when they bring it up--one of them was so bold 
to bring it up--they then postponed even giving him a decision 
on when they would be filing for a visa for him.
    Since these students are so brilliant and they are 
wonderful contributors to our Nation's economy, I often step in 
and actually help them find new positions with companies that 
will treat them better and give them more of a commitment to 
citizenship.
    So, yes, it is being abused terribly by companies in the 
United States, and it is used as an opportunity to hide the 
fact that they are being underpaid, that they are being 
overworked, and that they have no voice.
    When it comes to women, this problem is even more further 
exacerbated because women most likely will have--I have here--a 
lot of my students have children, and they are afraid that they 
are going to be thrown out of the country and even though their 
children are U.S. citizens. They have no opportunity to be 
treated with the full rights as their children should be and as 
their children's neighbors and their parents are.
    So it is a horrible flaw in the program, and that is why I 
am not in favor and my organization is not in favor of using 
OPT, then H-1B as a bridge. We think that if somebody is 
worthwhile for a company and has skills that you truly need, 
then send them directly to the green card. These people are 
very competitive, and if they know those opportunities are 
there, that is the incentive. So it has been a problem, and I 
thank you for asking that question.
    Senator Grassley. Thank you, Madam Chair.
    Senator Hirono. Thank you, Senator.
    Senator Franken.
    Senator Franken. Thank you, Madam Chair.
    Ms. Moua, I want to pick up where Ms. Martin was talking 
about backlogs, and maybe instead of picking up, go back to 
what the effect of these backlogs is on families.
    In the first hearing we held this year on the subject of 
immigration reform, I highlighted the case of a Minnesota green 
card holder, a legal immigrant who filed to be reunited with 
his wife and four children in November 2010 and only got his 
application processed in February of this year. During that 
wait, his eldest son turned 21. That kicked him into a separate 
visa category with a 19-year backlog.
    Our immigration system is broken when, if you play by the 
rules, you do not get to see your wife for 3 years and your son 
for 20.
    Can you talk a little bit more about just what the impact 
of these backlogs is on families?
    Ms. Moua. Thank you, Senator Franken. I think that it is my 
mistake for not bringing the map to share with all of you about 
how complex the multiple systems we have in place are. I think 
that the family that you have talked about is a family that is 
caught in all the multiple backlogs that are implied in the 
current problem that we have. You can have a mixed status 
family where each family member is experiencing a different 
kind of backlog. Whether you come from--if you come from Mexico 
or any of the Asian countries, the wait times will differ, 
anywhere from 4, 6, 8 years to 23, 24 years, as we have seen in 
the Philippines.
    What that does is that for families who are caught in that 
limbo, it does not permit them to be able to visit one another 
while they are caught in that limbo. And for some families, it 
is not just about children, particularly if you are a legal 
permanent resident and you are not able to bring your spouse or 
minor children with you, you are separating children from their 
parents, you are separating husbands and wives from each other.
    In the situation involving our GLBT binational permanent 
partners couples, they are not able to be reunited with their 
families.
    In situations like our Filipino vets, you know, we gave 
them things by giving them citizenship to live in this country, 
and yet we are making them wait 20, 25, 26 years to bring their 
adult married children to be with them in their golden years, 
to be able to take care of them.
    You know, family immigration is good for our economy, and 
we know that our communities and all Americans benefit when we 
are able to provide immigrants with an opportunity to set 
roots.
    We know that siblings provide immigrants an immediate 
social support system that is able to help them with child care 
or if they fall on hard times or in instances when they need 
some help to start a business. The family network is what has 
helped our immigrants, regardless of how you come to this 
country, survive and start a life in this country.
    You know, Senator Franken, children will always be our 
children, whether they are over the age of 21 or not. And for 
us to start thinking about which piece of our family is 
expendable or is tradeable or should not be considered part of 
our long-held core value in our immigrant policies, which is 
family unit, for us to start to think about which members of 
our family we are going to trade away is a dramatic and drastic 
departure from the core values of what has been driving this 
country since our founding days, where families have come 
together and, through the network of families, be able to web 
together, a future together, dependent on each other.
    Senator Franken. And don't these backlogs sort of 
incentivize illegal immigration? I mean, if you are overseas 
and have no prospect of seeing your parents for over 20 years, 
you are going to--I know that I would like to think that my 
kids would do everything they could to be with me because they 
love me so much.
    [Laughter.]
    Ms. Moua. Senator, in my remarks, I talked about the family 
where one of the moms is facing deportation, and it is in 
circumstances like that where families feel like, you know, the 
choices before them are long, inhumanely backlog and waits or 
to choose to make those hard decisions to live in the shadows 
or to live in fear and take that risk. And I think that we know 
far too many families who are oftentimes forced into those 
circumstances.
    Senator Franken. I am thrilled that you are working to 
protect families in the immigration reform process. I want to 
ask you some questions about how this debate affects children 
in Minnesota and around the country.
    Even though undocumented immigration has gone down overall, 
the number of children arriving alone at our borders has 
doubled in recent years. The Federal Government is supposed to 
arrange for attorneys for these children, but only half of them 
are actually getting lawyers. Recently, the American Bar 
Association told me about a Minnesotan who was brought to the 
country as a 1-year-old and who attended four court hearings 
without a lawyer.
    Now, obviously, a 1-year-old is a pretty dramatic case, but 
it is happening to all ages of children. At this point, Madam 
Chair, I would like to enter into the record the stories of 
three other young Minnesotans who entered the country when they 
were either 11 or 13 years old, but who suffered because they 
had no attorney to help them.
    Senator Hirono. Without objection, so ordered.
    Senator Franken. Thank you.
    [The information appears as a submission for the record.]
    Senator Franken. Ms. Moua, do you think this is a problem 
we need to address and to solve? And Ms. Martin, too.
    Ms. Moua. Thank you, Madam Chair and Senator. Senator 
Franken, let me take a small shot at them, and then any of our 
panelists should weigh in because this is an area that is close 
to many of our hearts.
    I agree with you that children are children, are our 
children, and we all have an obligation to make sure that our 
children, regardless of their parentage, are able to navigate 
through our systems and that we take care of them.
    The children that you talk about who arrive on our borders 
without their parents and who are living in this country as 
minors, is serious and we need to take care of them. You add 
that to the children who are U.S. citizens, whose parents have 
either been deported or are in the process of removal, many of 
whom may not have relatives here to care for them, who are also 
living in limbo without their families.
    It does not make sense for us to create a system where we 
have got children living in this country and not have the 
opportunity to have their families and their parents here to 
help them take care of us, when in those situations we would 
take U.S. citizen children, deport their families, which is 
their core support, and then have the public system put them 
into a foster care system and pay for that when their parents 
are willing and able and capable of being here to take care of 
their children so that they can be a family together.
    Senator Franken. I have a piece of legislation, the Help 
Separated Children Act, which addresses when--we have had a 
situation in Minnesota where we had meat-packing plants raided, 
and the parents--you know, we would have an 8-year-old come 
back from school and see their brother, who is a year old, at 
home with no one taking care of him because the parents had 
been taken in. And this kid had to take care of the baby 
brother for a week while a grandmother came from Texas or 
something.
    Ms. Poo.
    Ms. Poo. I would like to thank you for your leadership on 
this issue, and the bill that you have introduced is very 
important. There are a number of due process issues that we 
have to pay attention to, making sure that parents can actually 
see to the well-being of their children, which is what they 
were meant to do.
    I had the opportunity recently to visit a shelter in 
Tijuana, Mexico, where women who have been deported end up as 
they try to figure out what happened to their children after 
they have been deported. And I met a woman who was still 
holding the shirt that she was trying to put on her 2-year-old 
son as she was separated, detained, and deported. And it took 
her weeks to figure out what happened to her child. And if you 
can imagine the pain that she felt and imagine what that child, 
that 2-year-old child felt as he watched and witnessed as his 
mother was separated from him indefinitely.
    So I think the issue--there are many due process issues. 
Families belong together, children need their parents, and 
families need one another. And I appreciate your question and 
your leadership.
    Ms. Martin. If I could just add, there have been some 
improvements made in the last few years since the separated 
children are now under the custody of the Office of Refugee 
Resettlement rather than Homeland Security. But we still have a 
big gap in terms of there not being someone who is appointed as 
a guardian for the children whose principal responsibility is 
figuring out what is in the best interest of the child. And the 
fact that we do not have legal assistance paid for by the 
Government in these cases, we tend to see them as civil cases, 
but the consequences particularly for a separate child are 
certainly as extreme as they are in criminal cases.
    So having the funds to be able to provide for legal 
assistance in these cases I think is absolutely essential.
    Senator Franken. Well, I hope the Justice Department can 
actually supervise this sometimes instead.
    Thank you. Thank you all for your testimony. Thank you for 
this hearing, Madam Chair.
    Senator Hirono. Thank you, Senator Franken.
    These are important issues, so we have been going over, and 
I want to thank Senator Sessions for your patience. Please go 
ahead.
    Senator Sessions. Thank you, Madam Chairman.
    Well, these are difficult issues. We need to work through 
them, and we need to create a system, I think, that serves our 
national interest. And I would repeat that. The goal of a good 
immigration system for the United States of America should 
serve the national interest of our Nation. It should includes 
systems that are readily enforceable and that are enforced, 
that are legitimate, creating a system that we can be proud of.
    I am very impressed with the Canadian system. I think it is 
a very good system, and we can a learn a lot from that. So we 
are into the difficult problems today, and this hearing has 
taught us a lot about the human consequences of any decision 
process when somebody gets admitted and somebody else does not. 
Just because it is painful and you made a choice to come to 
amendment does not necessarily mean, I think, that you get to 
bring your aging parents or your brother and sister. It just 
may not mean that. It is up to the United States to decide that 
question about who legitimately should be entered as we 
establish a good system of immigration.
    I think that is where the American people are. I think 
their instincts are good and decent. I think they are 
fundamentally correct. They are not anti-immigrant. We remain 
one of the most welcoming nations in the world for immigrants, 
and we are proud of that, and I want to stress that point. And 
no one is proposing that has any seriousness that we are going 
to restrict fundamentally the number of people who come into 
our country. We just need to decide how and what standards we 
will use for that and then how we can make sure it is 
accurately carried out.
    Madam Chair, this is a valuable hearing, and I wish that 
the Committee had been moving stronger over time to confront 
the real issues that presumably eight Senators are meeting 
somewhere, maybe this very minute, trying to decide. They might 
be under the table or down the hall or somewhere.
    [Laughter.]
    Senator Sessions. I do not know where they are, deciding 
the fate of millions. But I would suggest these are things that 
we need to be talking about.
    I will ask you, Ms. Martin, you worked on the Jordan 
Commission, and that was an remarkable effort. It, I think, 
came close to providing the Nation a way to deal with our 
challenge.
    Would you think that a good immigration policy should 
decide carefully who would be included in the future flow--
skills, language, family, and those kind of things? Just yes or 
not. Should that be one of the decisions we would make?
    Ms. Martin. Yes, of course.
    Senator Sessions. And that is not always easy, is it? You 
have been through it. It is a tough thing.
    What about the Temporary Guest Worker Program? It is kind 
of like some of these ideas that one person has one vision of a 
temporary guest worker and another one has an entirely 
different vision of it. It is not an easy thing, is it? It 
takes a lot of work to craft a legitimate Temporary Guest 
Worker Program?
    Ms. Martin. Right.
    Senator Sessions. And border security, that is a difficult 
challenge. We have made some progress, and we have not made 
some progress. But you would need to hear from experts and top 
personnel what kind of metrics to use, what kind of technology 
to use at the border, would you not?
    Ms. Martin. Of course.
    Senator Sessions. And what about the impact of very large 
numbers of immigrants that would have on--recent immigrants, 
women, who are working today and would like to get a pay raise 
or like to be able to think they could get a job, you would 
need to consider the impact of a large flow of immigrants on 
the ability of people to get jobs and maybe have an increase in 
their wage, would you not?
    Ms. Martin. Yes.
    Senator Sessions. And the biometrics, 40 percent, I 
understand now they say, that enter the country legally are--40 
percent of the people that are here illegally now have entered 
legally but did not depart as required. So you would need some 
sort of system of entry and exit accounting, would you not?
    Ms. Martin. Yes.
    Senator Sessions. And workplace enforcement, I think you 
mentioned that earlier, that is something we have wrestled with 
for 20, 30 years and have not gotten it fixed yet. But that 
would need to be fixed, would it not?
    Ms. Martin. Yes.
    Senator Sessions. And a biometric identifying document, 
that is always controversial. But isn't it pretty much in this 
modern age a cornerstone of an effective immigration policy? 
And the ability of State law enforcement officers to help with 
the Federal Government and many, many other issues.
    So let me ask you this: With the Jordan Commission, did you 
have public hearings?
    Ms. Martin. Yes, we did.
    Senator Sessions. Oh, you actually had public hearings?
    Ms. Martin. Yes, we had public hearings. We had public 
consultations that involved experts, advocacy groups, 
immigrants coming in and talking about various different 
issues. We also had an open microphone so that every person who 
came to the hearings was given 1 minute, and sometimes we would 
stay for 3, 4, or 5 hours while we waited for everyone to take 
their turn.
    Senator Sessions. Did you ever listen to experts like law 
enforcement officers and people who had done enforcement work 
for years and have experience in that? Were they invited?
    Ms. Martin. Yes, they were invited, and we also went with 
them on their rounds. So I spent a lot of time and the 
Commissioners spent a lot of time on the border going out with 
the Border Patrol to see what they were actually doing.
    Senator Sessions. Well, I think that is good because these 
issues are very complex. I talked with the Canadian leaders who 
helped craft their policy. They are proud of what they do. They 
have created a point system. They do not have the kind of 
family unification vision that many of you would favor, 
actually. And it strikes me--Ms. Moua, maybe you could comment, 
but do you think that a nation that decides that they can admit 
an individual is somehow making--somehow has no right to say 
that that person's brother would have to qualify independently 
rather than being given a guaranteed entry into the country? Do 
you think a country could legitimately make that decision?
    Ms. Moua. Senator Sessions, coming from the Asian American 
community here in the 1880s we were the first people to be 
excluded explicitly by the United States immigration policy, I 
am well aware that this country has never hesitated in terms of 
the way that it chooses to exercise its authority to permit 
people to either enter or depart its borders. And we know that 
the Asian American community in particular did not get to enjoy 
the benefit of immigration to this country until the 1960's 
when those restrictionist policies were lifted. So I know very 
well and am very aware that immigration----
    Senator Sessions. Well, so you would just say, it seems to 
me, that it is perfectly logical to think that there are two 
individuals--let us say in a good, friendly country like 
Honduras, one is a valedictorian of his class, has 2 years of 
college, learned English, and very much has a vision to come to 
the United States, and another one who dropped out of high 
school, has minimal skills, both are 20 years of age, and that 
latter person has a brother here. What would be in the interest 
of the United States? Which one of those would be in the best 
interest of the United States to be allowed to have preference 
to enter the United States?
    Ms. Moua. Senator, I think that under your scenario people 
can conclude about which one would be in the best interest of 
the United States. I think the more realistic scenario is that 
in the second situation that individual would be female, would 
not have been permitted to get an education. And if we were to 
create a system where there was some kind of preference given 
to, say, education or some other kind of metrics, I think that 
it would truly disadvantage specifically women and their 
opportunity to come into this country.
    Senator Sessions. Well, that certainly is a problem around 
the world, and I would think the primary problem with education 
and the fact that women have been discriminated against should 
be focused on the countries that are doing that primarily.
    Ms. Martin, it strikes me that there is a limited number of 
people that the United States can accept. We cannot accept 
everybody that would like to come, so we should set up 
standards that are fair and just and responsible and 
reasonable. Your Commission dealt with married adult children 
and brothers and sisters, and I suppose--I am not sure what you 
decided about aging parents, but when you admit those persons 
in preference over people with skills the country needs, people 
that are likely to be successful here, you are making a pretty 
significant policy decision, are you not?
    Ms. Martin. The Commission recommended against continuing 
to accept applications for siblings and for adult married 
children largely because we thought that the types of backlogs 
and waiting lists that had been put in--that had ended up being 
in place for those categories made those two categories in 
particular almost farcical because, instead of providing a 
rapid way for people to be able to come in, join up with their 
family members, and work, contribute, whether they are 
uneducated or educated, they were instead outside of the 
country sometimes for 15, 20, 25 years. And we felt that it was 
more important to ensure that all spouses and minor children 
were able to enter quickly and be with their immediate 
relatives.
    Frankly, if the Congress were willing to provide very large 
numbers of visas for family and could guarantee that brothers 
and sisters could enter within a reasonable period of time, 
that is a decision Congress can make. But to maintain a few 
visas and when the demand is so large that you end up with 
waiting times of 20, 25 years for certain nationalities, that 
seems to me to be a ridiculous way of managing the problem. So 
it is an issue for Congress.
    You know, I started my testimony saying that there is no 
special magic number.
    Senator Sessions. Well, thank you. I would say that this 
has been a good discussion. Professor Borjas at Harvard, who 
wrote the book, one of the primary books on this, thinks we 
already are admitting more people than the country can accept 
in terms of employment and their expectation that they could be 
successful. He said that in 2007 when we had 5-percent 
unemployment.
    So I do think there is a limit to how many that can come. 
We have a pretty generous number now. I am not saying that 
should be reduced, but I do think that because a person chooses 
to leave their home country and come to the United States does 
not necessarily mean they have a right to demand that their 
brother or their other extended family members be allowed to 
come if they do not otherwise meet the standards.
    Thank you, Madam Chair. You are very gracious. I am sorry 
to go over.
    Senator Hirono. Thank you, Senator Sessions, and I want to 
thank all of the members of the panel.
    Our country is a country of immigrants, and the success of 
the immigrants in this country is often the success of 
immigrants and their families. And so I do not think that we 
should be setting up an either/or proposition because, of 
course, even those people who are the most highly educated and 
skilled immigrants, they have families, too. And so this is--
you know, as a sovereign Nation, of course we can set whatever 
limits that we choose as to who can come into our country. But 
this is all about doing the kind of immigration reform that 
really supports the values that we have in this country. And 
one of the values we have in this country is family is 
important.
    So, with that, I am going to adjourn this hearing, and the 
record will remain open for 1 week.
    Thank you very much. We stand in adjournment.
    [Whereupon, at 3:41 p.m., the Committee was adjourned.]
    [Questions and answers and submissions for the record 
follow.]

[GRAPHIC] [TIFF OMITTED] T1734.001

[GRAPHIC] [TIFF OMITTED] T1734.002

[GRAPHIC] [TIFF OMITTED] T1734.003

[GRAPHIC] [TIFF OMITTED] T1734.004

[GRAPHIC] [TIFF OMITTED] T1734.005

[GRAPHIC] [TIFF OMITTED] T1734.006

[GRAPHIC] [TIFF OMITTED] T1734.007

[GRAPHIC] [TIFF OMITTED] T1734.008

[GRAPHIC] [TIFF OMITTED] T1734.009

[GRAPHIC] [TIFF OMITTED] T1734.010

[GRAPHIC] [TIFF OMITTED] T1734.011

[GRAPHIC] [TIFF OMITTED] T1734.012

[GRAPHIC] [TIFF OMITTED] T1734.013

[GRAPHIC] [TIFF OMITTED] T1734.014

[GRAPHIC] [TIFF OMITTED] T1734.015

[GRAPHIC] [TIFF OMITTED] T1734.016

[GRAPHIC] [TIFF OMITTED] T1734.017

[GRAPHIC] [TIFF OMITTED] T1734.018

[GRAPHIC] [TIFF OMITTED] T1734.019

[GRAPHIC] [TIFF OMITTED] T1734.020

[GRAPHIC] [TIFF OMITTED] T1734.021

[GRAPHIC] [TIFF OMITTED] T1734.022

[GRAPHIC] [TIFF OMITTED] T1734.023

[GRAPHIC] [TIFF OMITTED] T1734.024

[GRAPHIC] [TIFF OMITTED] T1734.025

[GRAPHIC] [TIFF OMITTED] T1734.026

[GRAPHIC] [TIFF OMITTED] T1734.027

[GRAPHIC] [TIFF OMITTED] T1734.028

[GRAPHIC] [TIFF OMITTED] T1734.029

[GRAPHIC] [TIFF OMITTED] T1734.030

[GRAPHIC] [TIFF OMITTED] T1734.031

[GRAPHIC] [TIFF OMITTED] T1734.032

[GRAPHIC] [TIFF OMITTED] T1734.034

[GRAPHIC] [TIFF OMITTED] T1734.035

[GRAPHIC] [TIFF OMITTED] T1734.036

[GRAPHIC] [TIFF OMITTED] T1734.037

[GRAPHIC] [TIFF OMITTED] T1734.038

[GRAPHIC] [TIFF OMITTED] T1734.039

[GRAPHIC] [TIFF OMITTED] T1734.040

[GRAPHIC] [TIFF OMITTED] T1734.041

[GRAPHIC] [TIFF OMITTED] T1734.042

[GRAPHIC] [TIFF OMITTED] T1734.043

[GRAPHIC] [TIFF OMITTED] T1734.033

[GRAPHIC] [TIFF OMITTED] T1734.044

[GRAPHIC] [TIFF OMITTED] T1734.045

[GRAPHIC] [TIFF OMITTED] T1734.046

[GRAPHIC] [TIFF OMITTED] T1734.047

[GRAPHIC] [TIFF OMITTED] T1734.048

[GRAPHIC] [TIFF OMITTED] T1734.049

[GRAPHIC] [TIFF OMITTED] T1734.050

[GRAPHIC] [TIFF OMITTED] T1734.051

[GRAPHIC] [TIFF OMITTED] T1734.052

[GRAPHIC] [TIFF OMITTED] T1734.053

[GRAPHIC] [TIFF OMITTED] T1734.054

[GRAPHIC] [TIFF OMITTED] T1734.055

[GRAPHIC] [TIFF OMITTED] T1734.056

[GRAPHIC] [TIFF OMITTED] T1734.057

[GRAPHIC] [TIFF OMITTED] T1734.058

[GRAPHIC] [TIFF OMITTED] T1734.059

[GRAPHIC] [TIFF OMITTED] T1734.060

[GRAPHIC] [TIFF OMITTED] T1734.061

[GRAPHIC] [TIFF OMITTED] T1734.062

[GRAPHIC] [TIFF OMITTED] T1734.063

[GRAPHIC] [TIFF OMITTED] T1734.064

[GRAPHIC] [TIFF OMITTED] T1734.065

[GRAPHIC] [TIFF OMITTED] T1734.066

[GRAPHIC] [TIFF OMITTED] T1734.067

[GRAPHIC] [TIFF OMITTED] T1734.068

[GRAPHIC] [TIFF OMITTED] T1734.069

[GRAPHIC] [TIFF OMITTED] T1734.070

[GRAPHIC] [TIFF OMITTED] T1734.071

[GRAPHIC] [TIFF OMITTED] T1734.072

[GRAPHIC] [TIFF OMITTED] T1734.073

[GRAPHIC] [TIFF OMITTED] T1734.074

[GRAPHIC] [TIFF OMITTED] T1734.075

[GRAPHIC] [TIFF OMITTED] T1734.076

[GRAPHIC] [TIFF OMITTED] T1734.077

[GRAPHIC] [TIFF OMITTED] T1734.078

[GRAPHIC] [TIFF OMITTED] T1734.079

[GRAPHIC] [TIFF OMITTED] T1734.080

[GRAPHIC] [TIFF OMITTED] T1734.081

[GRAPHIC] [TIFF OMITTED] T1734.082

[GRAPHIC] [TIFF OMITTED] T1734.083

[GRAPHIC] [TIFF OMITTED] T1734.084

[GRAPHIC] [TIFF OMITTED] T1734.085

[GRAPHIC] [TIFF OMITTED] T1734.086

[GRAPHIC] [TIFF OMITTED] T1734.087

[GRAPHIC] [TIFF OMITTED] T1734.088

[GRAPHIC] [TIFF OMITTED] T1734.089

[GRAPHIC] [TIFF OMITTED] T1734.090

[GRAPHIC] [TIFF OMITTED] T1734.091

[GRAPHIC] [TIFF OMITTED] T1734.092

[GRAPHIC] [TIFF OMITTED] T1734.093

[GRAPHIC] [TIFF OMITTED] T1734.094

[GRAPHIC] [TIFF OMITTED] T1734.095

[GRAPHIC] [TIFF OMITTED] T1734.096

[GRAPHIC] [TIFF OMITTED] T1734.097

[GRAPHIC] [TIFF OMITTED] T1734.098

[GRAPHIC] [TIFF OMITTED] T1734.099

[GRAPHIC] [TIFF OMITTED] T1734.100

[GRAPHIC] [TIFF OMITTED] T1734.101

[GRAPHIC] [TIFF OMITTED] T1734.102

[GRAPHIC] [TIFF OMITTED] T1734.103

[GRAPHIC] [TIFF OMITTED] T1734.104

[GRAPHIC] [TIFF OMITTED] T1734.105

[GRAPHIC] [TIFF OMITTED] T1734.106

[GRAPHIC] [TIFF OMITTED] T1734.107

[GRAPHIC] [TIFF OMITTED] T1734.108

[GRAPHIC] [TIFF OMITTED] T1734.109

[GRAPHIC] [TIFF OMITTED] T1734.110

[GRAPHIC] [TIFF OMITTED] T1734.111

[GRAPHIC] [TIFF OMITTED] T1734.112

[GRAPHIC] [TIFF OMITTED] T1734.113

[GRAPHIC] [TIFF OMITTED] T1734.114

[GRAPHIC] [TIFF OMITTED] T1734.115

[GRAPHIC] [TIFF OMITTED] T1734.116

[GRAPHIC] [TIFF OMITTED] T1734.117

[GRAPHIC] [TIFF OMITTED] T1734.118

[GRAPHIC] [TIFF OMITTED] T1734.119

[GRAPHIC] [TIFF OMITTED] T1734.120

[GRAPHIC] [TIFF OMITTED] T1734.121

[GRAPHIC] [TIFF OMITTED] T1734.122

[GRAPHIC] [TIFF OMITTED] T1734.123

[GRAPHIC] [TIFF OMITTED] T1734.124

[GRAPHIC] [TIFF OMITTED] T1734.125

[GRAPHIC] [TIFF OMITTED] T1734.126

[GRAPHIC] [TIFF OMITTED] T1734.127

[GRAPHIC] [TIFF OMITTED] T1734.128

[GRAPHIC] [TIFF OMITTED] T1734.129

[GRAPHIC] [TIFF OMITTED] T1734.130

[GRAPHIC] [TIFF OMITTED] T1734.131

[GRAPHIC] [TIFF OMITTED] T1734.132

[GRAPHIC] [TIFF OMITTED] T1734.133

[GRAPHIC] [TIFF OMITTED] T1734.134

[GRAPHIC] [TIFF OMITTED] T1734.135

[GRAPHIC] [TIFF OMITTED] T1734.136

[GRAPHIC] [TIFF OMITTED] T1734.137

[GRAPHIC] [TIFF OMITTED] T1734.138

[GRAPHIC] [TIFF OMITTED] T1734.139

[GRAPHIC] [TIFF OMITTED] T1734.140

[GRAPHIC] [TIFF OMITTED] T1734.141

[GRAPHIC] [TIFF OMITTED] T1734.142

[GRAPHIC] [TIFF OMITTED] T1734.143

[GRAPHIC] [TIFF OMITTED] T1734.144

[GRAPHIC] [TIFF OMITTED] T1734.145

[GRAPHIC] [TIFF OMITTED] T1734.146

[GRAPHIC] [TIFF OMITTED] T1734.147

[GRAPHIC] [TIFF OMITTED] T1734.148

[GRAPHIC] [TIFF OMITTED] T1734.149

[GRAPHIC] [TIFF OMITTED] T1734.150

[GRAPHIC] [TIFF OMITTED] T1734.151

[GRAPHIC] [TIFF OMITTED] T1734.152

[GRAPHIC] [TIFF OMITTED] T1734.153

[GRAPHIC] [TIFF OMITTED] T1734.154

[GRAPHIC] [TIFF OMITTED] T1734.155

[GRAPHIC] [TIFF OMITTED] T1734.156

[GRAPHIC] [TIFF OMITTED] T1734.157

[GRAPHIC] [TIFF OMITTED] T1734.158

[GRAPHIC] [TIFF OMITTED] T1734.159

[GRAPHIC] [TIFF OMITTED] T1734.160

[GRAPHIC] [TIFF OMITTED] T1734.161

[GRAPHIC] [TIFF OMITTED] T1734.162

[GRAPHIC] [TIFF OMITTED] T1734.163

[GRAPHIC] [TIFF OMITTED] T1734.164

[GRAPHIC] [TIFF OMITTED] T1734.165

[GRAPHIC] [TIFF OMITTED] T1734.166

[GRAPHIC] [TIFF OMITTED] T1734.167

[GRAPHIC] [TIFF OMITTED] T1734.168

[GRAPHIC] [TIFF OMITTED] T1734.169

[GRAPHIC] [TIFF OMITTED] T1734.170

[GRAPHIC] [TIFF OMITTED] T1734.171

[GRAPHIC] [TIFF OMITTED] T1734.172

[GRAPHIC] [TIFF OMITTED] T1734.173

[GRAPHIC] [TIFF OMITTED] T1734.174

[GRAPHIC] [TIFF OMITTED] T1734.175

[GRAPHIC] [TIFF OMITTED] T1734.176

[GRAPHIC] [TIFF OMITTED] T1734.177

[GRAPHIC] [TIFF OMITTED] T1734.178

[GRAPHIC] [TIFF OMITTED] T1734.179

[GRAPHIC] [TIFF OMITTED] T1734.180

[GRAPHIC] [TIFF OMITTED] T1734.181

[GRAPHIC] [TIFF OMITTED] T1734.182

[GRAPHIC] [TIFF OMITTED] T1734.183

[GRAPHIC] [TIFF OMITTED] T1734.184

[GRAPHIC] [TIFF OMITTED] T1734.185

[GRAPHIC] [TIFF OMITTED] T1734.186

[GRAPHIC] [TIFF OMITTED] T1734.187

[GRAPHIC] [TIFF OMITTED] T1734.188

[GRAPHIC] [TIFF OMITTED] T1734.189

[GRAPHIC] [TIFF OMITTED] T1734.190

[GRAPHIC] [TIFF OMITTED] T1734.191

[GRAPHIC] [TIFF OMITTED] T1734.192

[GRAPHIC] [TIFF OMITTED] T1734.193

[GRAPHIC] [TIFF OMITTED] T1734.194

[GRAPHIC] [TIFF OMITTED] T1734.195

[GRAPHIC] [TIFF OMITTED] T1734.196

[GRAPHIC] [TIFF OMITTED] T1734.197

[GRAPHIC] [TIFF OMITTED] T1734.198

[GRAPHIC] [TIFF OMITTED] T1734.199

[GRAPHIC] [TIFF OMITTED] T1734.200

[GRAPHIC] [TIFF OMITTED] T1734.201

[GRAPHIC] [TIFF OMITTED] T1734.202

[GRAPHIC] [TIFF OMITTED] T1734.203

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
